        SUBJECT               CLASSIFICAnON           DATE APPROVED               PIINUMBER
Office of Ins ector General    Inspector General       November 1,2011                2.1.3



1.0    PURPOSE

       To establish the responsibility and authority of the Amtrak Office ofInspector General
       ("OIG"), the general principles for ensuring a productive relationship between the OIG
       and the rest of the company, and to summarize the process followed by the OIG when
       conducting audits, evaluations, and investigations.

2.0    SCOPE

       This policy applies to all Amtrak employees, contractors, programs, and operations.

3.0    RESPONSIBILITY

       The head of Amtrak and the Amtrak Inspector General ("Inspector General") are
       responsible for the interpretation and administration of this policy. As of the date of this
       policy, the "head" of Amtrak is defined as the Board of Directors of
       Amtrak (the "Board").

4.0    AUTHORITY AND RESPONSIBILITIES OF THE OIG

       4.1      Mission of the OIG. The Inspector General Act of 1978, as amended (5 U.S.C.
                Appendix 3), hereinafter "IG Act," established the OIG as an independent and
                objective unit within Amtrak to:

                (a) Provide policy direction for and to conduct, supervise, and coordinate audits
                    and investigations relating to Amtrak programs and operations;
                (b) Provide leadership and coordination and to recommend policies for activities
                    designed (1) to promote economy, efficiency, and effectiveness in the
                    administration of, and (2) to prevent and detect fraud and abuse in Amtrak
                    programs and operations;
                (c) Review existing and proposed legislation and regulations relating to Amtrak
                    programs and operations and make recommendations in its semiannual
                    reports concerning their impact on the economy and efficiency in the
                    administration of programs and operations administered or financed by
                    Amtrak or the prevention and detection of fraud and abuse in such programs;
                (d) Keep the Board of Directors and Congress fully and currently informed
                    concerning fraud and other serious problems, abuses, and deficiencies
                    relating to the administration of programs and operations administered or
                    financed by Amtrak, recommend corrective action concerning such
                    problems, abuses, and deficiencies, and report on the progress made in
                    implementing conective actions.

       4.2      Establishment of the OIG.

                (a) The Inspector General is appointed by the Board of Directors without regard
                    to political affiliation, and solely on the basis of integrity and demonstrated


                                                                                          I
        SUBJECT                 CLASSIFICAnON          DATE APPROVED              P/INUMBER
Office ofIns ector General       Inspector General      November 1,2011               2.1.3



                      ability in accounting, auditing, financial analysis, law, management analysis,
                      public administration, or investigations.
               (b)    The Inspector General reports to and is under the general supervision of the
                      Board of Directors and is not subject to supervision by any other officer or
                      employee of Amtrak. The Board of Directors cannot prevent or prohibit the
                      Inspector General from initiating, carrying out, or completing any audit or
                      investigation, or from issuing any subpoena during the course of any audit or
                      investigation.
               (c)    The Inspector General serves as a non-voting, ex officio member of the
                      Executive Committee. This is an important mechanism to foster open
                      communications and facilitate the exchange of information. It allows the IG
                      to be aware of management issues and concerns and to provide appropriate
                      input for management to consider. The IG's role will be limited and subject
                      to the following conditions:
                      (1) The IG will not be a voting member;
                      (2) The IG will not perfOim programmatic functions or roles, which are
                           proscribed under the IG Act;
                      (3) The IG's participation will be in a mutually agreed capacity, which
                           allows the IG to decide not to attend certain meetings, or Amtrak
                           management to elect to conduct meetings or segments of meetings,
                           without the IG's presence;
                      (4) Both the IG and Amtrak management will respect the IG's statutory
                           requirement to maintain independence and objectivity and will not
                           request participation or agreement with respect to any matter that would
                           impair or compromise that independence or objectivity;
                      (5) The IG will not make management decisions or perform management
                           functions.
               (d)    If the Inspector General is removed from office or is transferred to another
                      position or location within Amtrak, the Board of Directors must
                      communicate in writing the reasons for the removal or transfer to both
                      Houses of Congress, at least 30 days before the removal or transfer. The
                      Board of Directors can also take other personnel actions authorized by law.
                (e)   The Board of Directors also provides the OIG with appropriate and adequate
                      office space at central and field office locations of Amtrak, together with
                      needed equipment, office supplies, communications facilities and services,
                      and necessary maintenance services.


       4.3     Authority of the Inspector General. In carrying out the provisions of the IG Act,
               the Inspector General is authorized to:

                (a) Conduct audits and investigations and issue reports relating to Amtrak
                    programs and operations that, in the judgment of the Inspector General, are
                    necessary or desirable;
                (b) Have access to all Amtrak records, reports, audits, reviews, documents,
                    papers, recommendations, or other material available to Amtrak which relate

       APPROVED                     REVISION NO.            SUPERSEDES                 PAGE
Amtrak Board of Directors                                       2.1.2                    2
By its Chairman,
Thomas Carper
        SUBJECT                                        DATE APPROVED               PIINUMBER
Office ofIns ector General                              November 1,2011                2.1.3



                      to programs and operations with respect to which the Inspector General has
                      responsibilities;
                (c)   Request such infonnation or assistance as may be necessary to carry out the
                      duties and responsibilities provided by the IG Act from any Federal, State, or
                      local governmental agency or unit thereof;
                (d)   Require by subpoena the production of infonnation, documents, reports,
                      answers, records, accounts, papers and other data needed to accomplish the
                      functions assigned by the IG Act (procedures other than subpoenas will be
                      used by the Inspector General to obtain documents and information from
                      Federal agencies). Because the Inspector General has access to all Amtrak
                      infonnation, subpoenas are not used to obtain documents and information
                      from Amtrak;
                (e)   Administer oaths, affirmations, and affidavits, when needed to carry out the
                      functions assigued by the IG Act;
                (f)   Have direct and prompt access to the Board of Directors when necessary for
                      any purpose pertaining to the perfonnance of functions and responsibilities
                      under the IG Act; and
                (g)   Enter into contracts and other arrangements for audits, studies, analyses, and
                      other services with public agencies and with private persons, and to make
                      such payments as may be necessary to carry out the provisions of the IG Act.

5.0    GENERAL PRINCIPLES GUIDING RELATIONSIDPS WITH THE orG

       5.1     To work together most effectively, the OIG and Amtrak's management,
               employees, and contractors should:

                (a) Interact with professionalism and mutual respect.
                    (l) Representatives of Amtrak's management and the OIG should always act
                        in good faith and expect the same from the other.
                    (2) Amtrak's management and the OIG share as a common goal the
                        successful accomplishment of Amtrak's mission.
                (b) Eusure mutual respect for each mission.
                    (l) Amtrak's officers, directors, employees, and contractors should
                        recoguize the OIG's primary responsibility and authority to conduct
                        independent and objective audits, evaluations, and investigations of
                        Amtrak programs and operations, and the OIG's responsibility to report
                        to both the Board of Directors and the Congress.
                    (2) The orG will seek to carry out its work with a minimum of disruption to
                        the primary mission of Amtrak.
                    (3) Amtrak's management will promptly notifY the orG in the event that it
                        initiates reviews or examinations related to fraud or waste which could
                        be the subject of an OIG audit, 'investigation, or inspection. Once
                        notified, the Inspector General will detennine whether it is a matter
                        subject to the jurisdiction of the OIG and respond promptly to
                        management to detennine how to proceed. To the extent the Inspector
                        General deems appropriate, the orG will coordinate with the responsible

       APPROVED                     REVISION NO.            SUPERSEDES                 PAGE
Amtrak Board of Directors                                      2.1.2                     3
By its Chairman,
Thomas Carper
        SUBJECT                                       DATE APPROVED              PIINUMBER
Office of Inspector General                           November I, 20 II              2.1.3



                        department where management is engaged in a review or examination
                        or litigation involving matters of common interest to the OIG and
                        management.
                    (4) If, in the course of its work, the OrG discovers facts or circumstances
                        related to safety or other matters which have some immediacy or may
                        cause significant business or legal harm to the company unless
                        management is notified and given the opportunity to intervene, the
                        Inspector General will, at his discretion, notify and coordinate with
                        appropriate Amtrak managers or the department head in order to address
                        safety issues quickly or to limit significant bnsiness or legal harm.
                (c) Foster open communications at all levels.
                    (I) The OIG's access to information, records, facilities and people must be
                        unimpeded. Amtrak's employees, contractors, and representatives
                        shonld promptly respond to OrG requests for information to facilitate
                        OIG activities.
                    (2) Amtrak managers will be forthcoming in recognizing the existence of
                        challenges that the OIG can help to address.
                    (3) Surprises are to be avoided. The OIG will seek to avoid undertaking its
                        work or presenting its findings without reasonable notice to management
                        and management will keep the OIG informed of significant challenges
                        and problems.
                    (4) With limited exceptions, primarily related to criminal investigations, the
                        Inspector General will keep the President and the Board of Directors
                        advised of its work and its findings on a timely basis, and the OIG will
                        provide information helpful to Amtrak's management at the earliest
                        possible stage.
                    (5) Because some OIG investigations may involve allegations of criminal
                        misconduct or other need for confidentiality, circumstances will dictate
                        whether, and what type of, notice will be given. This will be at the
                        discretion of the hlspector General, with consideration of all factors of
                        confidentiality, sensitivity, and investigative techniques.
                (d) Be thorough, objective, and fair.
                    (1) The OIG will pelform its work thoroughly, objectively, and with due
                        consideration of the point of view of Amtrak's management.
                    (2) When working with the OIG, Amtrak's management and staff should
                        objectively consider differing opinions and alternative ways to improve
                        operations.
                    (3) Both the OIG and other departments of Amtrak should recognize
                        successes in addressing management challenges and advancing Amtrak's
                        mission.
                (e) Respect confidential information.
                    (1) The OIG will respect Amtrak's'need to protect confidential, sensitive, or
                        privileged information from inappropriate disclosure, while meeting
                        OIG's obligation to report to the Department of Justice, external
                        oversight entities such as Congress, and the public.


       APPROVED                   REVISION NO.            SUPERSEDES                 PAGE
Amtrak Board of Directors                                    2.1.2                     4
By its Chairman,
Thomas Carper
        SUBJECT                                       DATE APPROVED              P/INUMBER
Office ofIns ector General                             November 1, 2011              2.1.3



                    (2) The terms confidential, sensitive, and privileged will be accorded the
                        meanings ascribed to them under the Freedom of Information Act
                        (FOIA).
                    (3) Other than the Department of Justice, in disclosing to external oversight
                        entities (such as the Congress, Department of Transportation, OMB, and
                        GAO) or other law enforcement entities, information that may be
                        confidential, sensitive or privileged, the OIG will notify the recipient
                        entities of the confidential, sensitive, or privileged nature of the
                        information and request that they treat the information with the level of
                        protection set forth under the FOIA or as otherwise required by law. If
                        the IG believes there is a significant risk that the information could be
                        released inappropriately, he may, at his discretion, consult with the
                        appropriate department head to ensure that the company's interests are
                        protected.
                    (4) The process to determine the sensitivity of information included in OIG
                        audit, evaluation, and investigative reports that will be subject to public
                        release is described in sections 6 and 7 below.
                (l) Be engaged.
                    (1) The OIG, Amtrak's management, and the Board will work cooperatively
                        to identify the most important areas for OIG work, as well as the best
                        means to address the results of that work, while maintaining the OIG's
                        required independence.
                    (2) Amtrak's leadership will recognize that the OIG's limited resources must
                        also be applied to address work that is initiated by the OIG, requested by
                        members of Congress, or mandated by law or regulation.
                (g) Facilitate the exchange of information.
                    (1) The OIG will keep abreast of Amtrak's programs and operations, and
                        keep Amtrak's management and Board informed of OIG activities and
                        concerns that are raised in the course of the OIG's work.
                    (2) Amtrak's management and Board should ensure that the OIG is kept up
                        to date on current matters and events affecting Amtrak or that may affect
                        it in the future.
                    (3) Amtrak and the OIG will implement mechanisms, both formal and
                        informal, to ensure prompt and regular feedback.
                    (4) All Amtrak employees, contractors, and representatives should
                        understand that the OIG is the primary entity within Amtrak to address
                        issues or concerns related to fraud or abuse; and that they have a
                        responsibility to report suspected violations of the law or Amtrak policy
                        that could result in fraud or abuse.
                    (5) The failure to cooperate with or the intentional furnishing of false or
                        misleading infonnation to the OIG by Amtrak employees, contract
                        personnel, or representatives, may result in disciplinary action, contract
                        termination, andlor criminal sanctions.
                    (6) Amtrak's managers must ensure that reprisals are not taken against
                        employees who cooperate with or disclose information to the OIG or
                        other lawful authority.

       APPROVED                   REVISION NO.            SUPERSEDES                  PAGE
Amtrak Board of Directors                                      2.1.2                    5
By its Chairman,
Thomas Carper
        SUBJECT               CLASSIFICATION          DATE APPROVED              PIINUMBER
Office of Ins ector General    Inspector General       November I, 2011              2.1.3




6.0    COORDINATION BETWEEN AMTRAK OFFICIALS AND THE orG ON
       INVESTIGATIONS

       6.1      General Investigative Process.

                (a) The orG determines whether it will initiate an investigation once it receives
                    an allegation regarding fraud, abuse, criminal action, or other wrongdoing.
                    Allegations originate from various sources including employees, vendors,
                    Congress, federal agencies, and prosecutors. The OIG may also initiate
                    investigations proactively to ensure that Amtrak is not being subject to fraud,
                    waste, or abuse.
                (b) The investigative process generally involves: (1) detennining the basis for an
                    allegation; (2) analyzing the issues involved; and (3) obtaining relevant,
                    objective evidence from individuals and entities, in the form of interviews,
                    documents, tangible objects, and data.
                (c) The orG follows the Quality Standards for Investigations (issued by the
                    Council of the Inspectors General on Integrity and Efficiency ("CIGIE")) to
                    guide its investigative activity.
                (d) Allegations are reviewed and screened and resources are allocated based on,
                    among other things, the seriousness of the allegations, potential hann to
                    Amtrak or the public, whether a violation of a statute or regulation likely
                    occUlTed, and the effect of the alleged illegal or improper activity on Amtrak
                    programs and operations.
                (e) If the orG detennines that an investigation should be undertaken, it seeks to
                    obtain all relevant facts by examining documents and other tangible materials
                    and interviewing individuals. When appropriate or required by law, the orG
                    informs subjects of their legal rights, including the right or opportunity to
                    remain silent and to obtain legal counsel.
                (f) The process may result in one or more of the following OIG actions:
                    administrative report to management, referral to a prosecutor for
                    consideration, or closing the investigation.
                (g) When the investigation substantiates a wrongful act which is considered
                    administrative, the OIG usually prepares an investigative report, which
                    describes the allegation, the factual evidence to support its findings, and
                    recommendations. This report is submitted to management for a written
                    response. These administrative reports often recommend that management
                    take action, but usually do not recommend specific disciplinary action.
                    Privacy concerns usually restrict these reports from public release.
                (h) If an issue identified in an investigative report is a recurring or systemic
                    problem, the OIG may also identifY this broader problem to managers and,
                    usually, make recommendations for management to consider in addressing
                    the problem. Management normally is given an opportunity to provide
                    comments before the report is issued. The process for obtaining comments
                    and issuing the report is described in Section 7.2(h).


       APPROVED                   REVISION NO.            SUPERSEDES                  PAGE
Amtrak Board of Directors                                    2.1.2                      6
By its Chairman,
Thomas Carper
        SUBJECT                                       DATE APPROVED               PIINUMBER
Office ofIns ector General                             November 1,2011                2.1.3



               (i) If there is evidence of criminal wrongdoing, the OIG presents the report to
                   the Department of Justice or other appropriate prosecutors for their
                   consideration. This may lead to prosecution of the subject(s) in Federal,
                   state, or local court. In cases where there is evidence of criminal
                   wrongdoing, the Inspector General may, in his/her discretion, also refer the
                   report to management for administrative action.

       6.2     Requirements And Responsibilities.

               (a) OIG.
                   (1) The Inspector General shall not, after receipt of a complaint or
                       information from an employee, disclose the identity of the employee
                       without the consent of the employee, unless the Inspector General
                       detelmines such disclosure is unavoidable during the course of the
                       investigation.
                   (2) The OIG will ensure that Amtrak's confidential, sensitive, or privileged
                       information as defined in section 5.l(e) above is not inappropriately
                       disclosed by OIG employees.
                   (3) Circumstances when the OIG will disclose such information include:
                       (A) referrals to appropriate agencies for law enforcement purposes;
                       (B) disclosures under court order;
                       (C) responses to requests by Congress; and,
                       (D) referrals to other agencies that may have cognizance over the matter.
                   (4) The OIG will usually honor an employee's request that counsel be
                       present during an interview. The counsel may not be another employee
                       of Amtrak, paid for by Amtrak (unless approved in accordance with
                       Amtrak's Bylaws and policies), a potential subject, or a witness in the
                        case,
                   (5) Employees who allege that action was taken against them as reprisal or
                       retaliation for cooperating with or disclosing information to the OIG
                       while they were employed at Amtrak may request the OIG to investigate
                       their reprisal or retaliation allegations.
               (b) Amtrak Management, Employees, and Contractors.
                   (I) All Amtrak employees must comply with requests for interviews and
                       briefings.
                   (2) The failure to cooperate with or the intentional furnishing of false or
                       misleading information to the OIG by Amtrak employees, contract
                       personnel, or representatives, may result in disciplinary action, contract
                       termination, and/or criminal sanctions or penalties.
                   (3) Amtrak's managers must ensure that reprisals are not taken against
                       employees who cooperate with or disclose information to the OIG or
                       other lawful appropriate authority.
                   (4) In the context of investigations, managers should not question staff about
                       their interactions with the OIG.
                   (5) Any employee who makes a complaint to the OIG with the knowledge
                       that the complaint is false or that it is made with willful disregard for the

       APPROVED                  REVISION NO.             SUPERSEDES                   PAGE
Amtrak Board of Directors                                      2.1.2                     7
By its Chairman,
Thomas Carper
         SUBJECT                                       DATE APPROVED              PiINUMBER
 Office of Ins ector General                           November I, 2011               2.1.3



                          truth of the information may be held accountable for such statements and
                          may be subject to disciplinary action or criminal prosecution.

7.0     COORDINATION BETWEEN AMTRAK OFFICIALS AND OIG ON AUDITS AND
        EVALUATIONS

        7.1      Types of Audits and Evaluations. The OIG conducts audits and
                 evaluations of Amtrak programs and operations, including perfonnance of
                 contractors. Some audits and evaluations may be specifically required by statute.

                 (a) An audit is an independent, fonnal, aud methodical examination of au
                     organization, program, function, or activity, designed to help Amtrak
                     accomplish its mission efficiently and effectively. OIG audits are perfonned
                     in accordance with Goverrnnent Auditing Standards (commonly called the
                     Yellow Book).
                 (b) Evaluations are reviews of an organization, program, function, or activity.
                     Evaluations are perfonned in accordance with the Quality Standards for
                     Inspections issued by the CIGIE.
                 (c) Audits and evaluations may include fmancial or perfonnance reviews.
                     (1) Financial reviews include financial statement audits and any other
                         financially related reviews related to Amtrak's financial operations.
                     (2) Performance reviews include evaluating whether Amtrak programs and
                         operations are working efficiently and effectively as well as whether
                         programs are achieving expected results.
                 (d) The OIG also routinely gathers information and data but does not use that
                     infonnation in a fonnal audit report. These activities may be in response to a
                     congressional inquiry, a request for testimony, or routine planning purposes.
                     Normally, OIG staff members assigned to these activities directly contacts
                     responsible managers to collect information. The assigned OIG staff will
                     inform management of the nature of the data gathering effort.

        7.2      Audit and Evaluation Processes. The audit and evaluation processes involve the
                 following steps:

                 (a) Audit or Evaluation Planning. The OIG often conducts infonnal research
                     to help it develop audit or evaluation plans or to better understand emerging
                     issues. Audit plans outline potential reviews to be conducted, the objectives
                     of each review, and the resources required to conduct them. In developing
                     the audit or evaluation plan for the year, the OIG considers the following:
                     (1) Issues that may pose a risk to or would promote Amtrak's mission;
                     (2) Objectives of Amtrak's Board and senior managers; and
                     (3) Objectives of Congress.          .
                 (b) Notification. The OIG will notifY responsible management officials of its
                     intent to begin a review.
                 (c) Entrance Conference. As a general practice, the OIG will request an
                     entrance conference with responsible management officials to advise them of

       APPROVED                    REVISION NO.            SUPERSEDES                 PAGE
Amtrak Board of Directors                                     2.1.2                     8
By its Chairman,
Thomas Carper
        SUBJECT                 CLASSIFICAnON           DATE APPROVED               PIINUMBER
Office of Ins ector General      Inspector General       November I, 20 II              2.1.3



                      the objectives and scope of the review and the general methodology that will
                      be followed, and to solicit input from Amtrak officials.
                (d)   Survey. In some cases, particularly for large or complex reviews, the OIG
                      will perform initial research to refine the objectives, determine the scope, and
                      develop a sound methodology.
                (e)   Field Work. The OIG analyzes selected areas of a program, activity, or
                      function. It obtains sufficient evidence to support the findings and
                      conclusions and to make recommendations. Frequent interaction with
                      responsible managers and employees occurs during fieldwork.
                (1)   Exit Conference. Prior to the issuance of a draft audit or evaluation report,
                      the OIG will contact the responsible management official to set up an exit
                      conference to discuss the results of the work. In some cases discussion draft
                      reports or fact sheets are used to facilitate the discussion. The OIG strives to
                      maintain an open channel of communication with managers to ensure that
                      [mdings, conclusions, and recommendations are accurately and fairly
                      presented in the repOlt.
                (g)   Draft Report. The OIG provides a draft report to the Audit Liaison,
                      responsible managers of audited organizations, and Amtrak departments
                      affected by the audit findings for their review and comment. The draft report
                      will have been approved by OIG management and will contain the
                      objectives, results, conclusions, and recommendations resulting from the
                      OIG's audit or evaluation.
                (h)   Management Response. Responsible management officials are normally
                      provided 30 days to respond in writing to the draft report, indicating how
                      they plan to address the findings and recommendations contained in the
                      repOlt. In some cases, the OIG requests a quicker response. Extensions to
                      the established due date will be granted by the responsible Assistant
                      Inspector General.
                      (1) Comments should clearly indicate whether responsible management
                          officials concur with each of the recommendations.
                      (2) Concurrence is when management agrees to implement the
                          recommendation or to take an alternative action that will correct the
                          deficiency, along with actual or estimated completion dates.
                      (3) Nonconcurrence is when management does not agree to implement the
                          recommendation or an acceptable alternative. In this case, management
                          should explain the rationale, and include additional facts, if necessary.
                      (4) Management should also identify any information contained in the report
                          that should be protected from public release on the basis that its release
                          may cause significant business or legal harm to Amtrak (the information
                          so designated must not be subject to public release pursuant to the
                          Freedom of Information Act, as amended, 5 U.S.C. § 552). The
                          responsible manager should als'o weigh the public benefit of transparency
                          against the harm, or potential harm, to company interests, in light of the
                          fact that the company receives Federal subsidies.
                      (5) With respect to decisions regarding confidential, sensitive or privileged
                          information, the Inspector General will follow the standard set forth in

       APPROVED                     REVISION NO.             SUPERSEDES                  PAGE
Amtrak Board of Directors                                         2.1.2                    9
By its Chairman,
Thomas Carper
        SUBJECT                                       DATE APPROVED               P/INUMBER
Office of Ins ector General                            November 1,2011                2.1.3



                         Section 5.1(e) above. If the OIG disagrees with management's assertion
                         that specific information should be withheld from public release because
                         it is confidential, sensitive, or privileged, the IG will confer with the
                         responsible department head regarding the need to redact the information
                         before publicly releasing the report. If so requested, the department head
                         has one week to articulate in writing to the IG the bases or reasons for
                         protecting the information from disclosure, including identifYing the
                         significant business or legal harm anticipated compared to the benefit of
                         transparency. If, following that consultation, the IG determines that the
                         information should be publicly released, he will consult with the Chair
                         before including such information in a publicly released report.

                (i) Final Report. The OIG will amend the draft report, as appropriate, based on
                    management's response. The Inspector General makes final determinations
                    about what information will be included in the issued report. The OIG also
                    normally includes the entire management response, along with the OIG's
                    analysis of the response in the final report.
                G) Report Distribution. The OIG usually distributes audit and evaluation
                    reports to the Chairman, other Board members, responsible management
                    officials, and Congress. Final reports are normally public documents and are
                    available on the OIG Web site.
                (k) Recommendation Follow-up. Amtrak managers are responsible for
                    implementing OIG recommendations to the extent there is concurrence, and
                    OIG staff and Amtrak's Audit Liaison monitor managers' actions to ensure
                    that recommendations are implemented in a timely manner.

       7.3      Audit and Evaluation Process Responsibilities.

                (a) Audit Liaison.
                    (1) The Audit Liaison is an individual, or individuals, designated by Amtrak
                        management to perform the functions outlined in this section.
                    (2) Facilitates OIG audits and evaluations with Amtrak management. In this
                        role, the liaison ensures that Amtrak managers are aware of OIG reviews
                        and that OIG staff is provided with initial contacts to begin the review
                        process.
                    (3) Coordinates entrance and exit conferences with appropriate Amtrak
                         Inanagers.
                    (4) Follows up with Amtrak managers to track the status of management
                        actions to implement OIG recommendations.
                    (5) Ensures that management's response to draft reports is coordinated with
                        affected departments, is approved by the head of the audited department
                        or organization and is completed in a timely manner.
                (b) Inspector General Managers.
                    (1) Notifies responsible management officials of the intent to begin a review.
                    (2) Contacts responsible management officials and the audit liaison to
                        schedule entrance conferences and exit conferences.

       APPROVED                    REVISION NO.            SUPERSEDES                 PAGE
Amtrak Board of Directors                                      2.1.2                     10
By its Chairman,
Thomas Carper
        SUBJECT                                      DATE APPROVED              PIINUMBER
Office oflns ector General                            November 1,2011               2.1.3



                    (3) Provides copies of draft reports to the Audit Liaison, responsible
                        management officials of audited organizations, and Amtrak departments
                        affected by audit findings.
                    (4) Reviews and evaluates management response to the draft report and, as
                        appropriate, either revises the report or provides the OIG's analysis of
                        the response in the final report.
                    (5) Grants extensions to the established due date for management comments.
                    (6) Distributes final repOlls to the Audit Liaison and the appropriate Amtrak
                        departments, and makes further distribution to authorized committees
                        and subcommittees of Congress and the public.
                (c) Responsible Management Officials. To maximize the value ofOIG reports,
                    management officials or their designees will:
                    (I) Attend exit conferences, unless they are waived by agreement with the
                        orG.
                    (2) Prepare responses to draft OIG reports.
                    (3) State in the proposed management decision whether they concur with the
                        recommendations presented in the corresponding audit or evaluation
                        report or propose altemative actions to correct the deficiency. For
                        nonconcurrences, explain why management does not concur and present
                        additional facts, if necessary.
                    (4) Take prompt and effective action to implement agreed-upon corrective
                        actions.

8.0    OTHER POLICIES

       8.1     The presumption is that this policy will take precedence in instances where other
               policies are inconsistent with this policy. When inconsistencies are identified,
               OIG and management will consult and reconcile differences.




       APPROVED                    REVISION NO.           SUPERSEDES                 PAGE
Amtrak Board of Directors                                     2.1.2                    11
By its Chairman,
Thomas Carper
